<html>
<title> - S. 410, S. 1163, AND S. 1928</title>
<body><pre>[Senate Hearing 114-192]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 114-192

                      S. 410, S. 1163, AND S. 1928

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 18, 2015

                               __________

         Printed for the use of the Committee on Indian Affairs




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







                         U.S. GOVERNMENT PUBLISHING OFFICE 

98-984 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001





                      COMMITTEE ON INDIAN AFFAIRS

                    JOHN BARRASSO, Wyoming, Chairman
                   JON TESTER, Montana, Vice Chairman
JOHN McCAIN, Arizona                 MARIA CANTWELL, Washington
LISA MURKOWSKI, Alaska               TOM UDALL, New Mexico
JOHN HOEVEN, North Dakota            AL FRANKEN, Minnesota
JAMES LANKFORD, Oklahoma             BRIAN SCHATZ, Hawaii
STEVE DAINES, Montana                HEIDI HEITKAMP, North Dakota
MIKE CRAPO, Idaho
JERRY MORAN, Kansas
     T. Michael Andrews, Majority Staff Director and Chief Counsel
       Anthony Walters, Minority Staff Director and Chief Counsel
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on November 18, 2015................................     1
Statement of Senator Barrasso....................................     1
Statement of Senator Franken.....................................     4
Statement of Senator Heitkamp....................................    37
Statement of Senator Tester......................................     2
Statement of Senator Udall.......................................     3

                               Witnesses

Accardi, Michelle, Director, State Policy and Outreach, National 
  Board for Professional Teaching Standards......................    30
    Prepared statement...........................................    32
Martinez, Glenabah, Associate Professor, University of New Mexico    13
    Prepared statement...........................................    16
MoQuino, Robert, First Lieutenant Governor, Pueblo of Acoma......    10
    Prepared statement...........................................    11
Robinson, Lillian Sparks, Commissioner, Administration for Native 
  Americans, U.S. Department of Health and Human Services........     5
    Prepared statement...........................................     7

                                Appendix

Kawai`ae`a, Keiki, Director, Ka Haka `Ula O Ke`elikolani College 
  of Hawaiian Language, University of Hawai`i at Hilo, prepared 
  statement......................................................    45
 
                      S. 410, S. 1163, AND S. 1928

                              ----------                              


                      WEDNESDAY, NOVEMBER 18, 2015


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:30 p.m. in room 
628, Dirksen Senate Office Building, Hon. John Barrasso, 
Chairman of the Committee, presiding.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
                   U.S. SENATOR FROM WYOMING

    The Chairman. Good afternoon. I call this hearing to order.
    Today we will examine three bills: S. 410, a bill to 
strengthen Indian education; S. 1163, a bill to amend the 
Native American Programs Act of 1974 to provide flexibility and 
reauthorization to ensure the survival and continuing vitality 
of Native American languages; and S. 1928, a bill to support 
the education of Indian children.
    As our Nation honors and celebrates the heritage and 
culture of Native Americans this month, it is very fitting that 
today's hearing focuses on legislation that would help educate 
the next generation of Native Americans.
    According to the National Center for Education Statistics, 
in the 2011-2012 school year, the national graduation rate 
reached ``a profound milestone'' with 80 percent of the 
students receiving a high school diploma. During the same 
school year, Indian students were the lowest achieving ethnic 
group to receive a diploma at a rate of only 67 percent.
    High dropout rates, crumbling school facilities, recruiting 
educators to teach Indian children, and the list of challenges 
goes on. These are just some of the problems these bills are 
intended to address.
    S. 410, sponsored by Senator Udall, would establish a 
program to help improve tribal and Bureau of Indian Education 
school facilities. This bill would create a joint oversight 
board between the Department of the Education and the 
Department of the Interior.
    I will turn to Senator Udall for more details about this 
bill and the next one shortly.
    S. 1163, sponsored by Senator Udall, and co-sponsored by 
Senators Franken, Heinrich, Heitkamp, Murkowski, Schatz, and 
Tester, would reauthorize and amend the Esther Martinez Native 
Languages Preservation Act Grant Program. The previous 
authorization expired in 2012.
    Finally, S. 1928, sponsored by Vice Chairman Tester and co-
sponsored by Senators Franken and Heinrich would establish 
Indian educator scholarship programs, loan forgiveness for 
qualifying educators who teach Indian children, and establish 
grants to assist educators with professional development and 
training.
    Now I will turn to Senator Tester, Vice Chairman of the 
Committee, for his opening statement.

                 STATEMENT OF HON. JON TESTER, 
                   U.S. SENATOR FROM MONTANA

    Senator Tester. Thank you, Mr. Chairman, for holding this 
legislative hearing.
    The legislation we are covering today is all Indian 
education-related. Every member of this Committee knows the 
challenges that face our Native children across Indian country.
    I have said time and time again there is no stronger tool 
available to combat the disparities and challenges facing many 
tribal communities than education.
    Throughout this Congress, I have introduced several pieces 
of legislation that look to improve the state of Indian 
education. Earlier this year, I introduced a bill to ensure 
that Native children can receive a culturally-relevant 
education by expanding Native language programs to better 
connect students with their rich heritage and help keep their 
traditions and culture alive.
    The bill has already been reported out of this Committee. I 
want to thank the Chairman and my colleagues for that.
    I have also introduced the Educational Programs for Indian 
Children Act to improve and expand before school, after school 
and summer school programs in Indian country so that Native 
students can keep engaging in enrichment activities even after 
the last school bell rings.
    This bill is pending with the Committee on Agriculture.
    I also introduced a bill to exempt Indian country from the 
harmful effects of sequestration which has detrimentally 
impacted Federal funding for Native education programs across 
the board.
    Now one of the pieces of legislation on today's slate of 
bills is another one of my efforts to improve Indian education, 
the Native Educator Support and Training Act, otherwise known 
as the NEST Act.
    This legislation aims to recruit and retain more teachers 
for Indian country and provide some much needed support for 
these dedicated professionals. It affords new scholarship 
opportunities for future teachers who know they want to work in 
Native classrooms.
    It expands loan forgiveness programs for educators who are 
already working in Native communities so that the increasing 
cost of college will not stand in the way of any committed 
individual who wants to serve tribal communities as a teacher.
    This legislation also recognizes that teachers need access 
to high quality professional development opportunities 
throughout their career. The bill supports expansion of the 
National Board certification and advanced degree opportunities 
across Indian country.
    If we want to ensure that our children are getting 
qualified and capable teachers, we must begin by making college 
more affordable and accessible to those who want to work in 
Indian country schools.
    Getting high quality teachers into our Native schools is 
only one of the things we can do to improve the education our 
kids are receiving. Native children should have access to the 
same building blocks to success before they enter the classroom 
as their non-Native peers.
    That is why earlier today I introduced a bill to streamline 
tribal early childhood programs at the Department of Health and 
Human Services. There are several funding streams that exist at 
HHS and this would break down the silent approach to funding 
for tribes.
    In addition, this new bill provides supplementary funding 
to improve and expand tribal early childhood facilities and 
infrastructure.
    Not only should we be providing the best possible education 
for our Native youth, it should be in the safest possible 
environment.
    If we can work together to make these initiatives a 
reality, I believe that Indian country will have some of the 
tools they need to improve the conditions facing too many 
Native children and families across this country.
    Education is the bedrock for all strong communities. That 
is why I am glad this Committee continues to prioritize this 
issue. As we move forward, I look forward to partnering with 
everyone on this Committee and all our colleagues in the Senate 
to ensure that Indian country has the resources and the 
capacity to continue a building more successful future.
    I want to thank the witnesses today for being here. I look 
forward to your testimony.
    Again, I would thank the Chairman for holding this 
legislative hearing today so we can get these pieces of 
legislation moving.
    The Chairman. Thank you very much, Mr. Vice Chairman.
    Senator Udall?

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Thank you, Chairman Barrasso and Vice 
Chairman Tester. Thank you for holding this hearing on these 
three important bills today.
    We want to do everything we can to ensure that the children 
in Indian country have the best education possible. We know 
this is just not the case and it has not been for years or for 
decades. That history is a painful one and we have not gotten 
it right yet.
    We can and must do more for our children. That is why I 
introduced the Building Upon the Unique Indian Learning and 
Development Act. My bill calls for improved language immersion, 
education leadership pipelines for teachers and principals, and 
innovation for improving school facilities. We need to do all 
of this and more.
    I look forward to hearing from Dr. Glenabah Martinez, a 
professor and Associate Dean at the University of New Mexico 
and an expert on American Indian education about how we can 
accomplish this.
    Just to say a few words about the two New Mexico witnesses, 
Dr. Glenabah Martinez is a professor and Associate Dean at the 
University of New Mexico. She is going to testify today.
    She was raised Taos Pueblo and taught high school social 
studies for 14 years before receiving her PhD. Dr. Martinez has 
conducted important research and published a book examining the 
state of Indian education.
    Her unique perspective as a former high school educator and 
currently as a Dean of Education and Preparation and 
Development will be an asset to today's hearing.
    Thank you for making the long trip from New Mexico.
    We also need robust funding for Indian education for school 
construction, contract support, and administrative cost grants 
to help tribes build capacity to manage their own education 
programs.
    Indian Country faces unique challenges, challenges of 
distance, infrastructure and capacity.
    I am very happy today also to see the First Lieutenant 
Governor of the Pueblo of Acoma, Robert MoQuino. Mr. MoQuino 
has joined us today to discuss this critical issue.
    He is a long-time tribal leader in New Mexico. I always 
look forward to my visits to his Pueblo of Acoma which is such 
a beautiful place, rich in culture, steeped in history and 
tradition. We are lucky to have the First Lieutenant Governor 
with us today. I am also eager to hear his testimony.
    Let me say a word or two about the bills. My bill, the 
Esther Martinez Native American Languages Preservation Act 
provides grants to Native American language and educational 
organizations to help preserve dying Native languages in Indian 
country.
    We know if you cannot retain the language, you cannot 
retain the culture. That is absolutely key. I hear that from 
Indian leaders over and over again.
    I would ask my colleagues to look at these pieces of 
legislation and I very much appreciate their support.
    Thank you very much, Mr. Chairman.
    The Chairman. Thank you very much, Senator Udall.
    Would any other Senators like to make a statement?

                 STATEMENT OF HON. AL FRANKEN, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Franken. Thank you, Mr. Chairman, for holding 
today's hearing on Indian education and education legislation.
    I am proud to co-sponsor Senator Tester's NEST Act and 
Senator Udall's Native American Languages Reauthorization Act. 
These bills are good steps toward providing Native Americans 
with quality instruction that is connected to their culture.
    I apologize if I have to step out. We are holding the first 
meeting of the Education Conference Committee this afternoon.
    I fought to include critical provisions for Indian country 
in the Senate bill to fix No Child Left Behind. Senator 
Murkowski and I worked together on amendments for immersion 
programs for American Indian and Alaska Native languages.
    Education is vital to increasing the opportunities 
available to Native Americans. I look forward to working with 
my colleagues to advance the bills we are considering in this 
Committee and to also make sure that programs for Indian youth 
remain a part of the Education bill.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Franken.
    Would any other Senators like to make a statement?
    [No response.]
    The Chairman. I would like to welcome our witnesses here 
today: the Honorable Lillian Sparks Robinson, Commissioner, 
Administration for Native Americans, U.S. Department of Health 
and Human Services, Washington, D.C.; the Honorable Robert 
MoQuino, First Lieutenant Governor, Pueblo of Acoma, Acoma 
Pueblo, NM; Dr. Glenabah Martinez, Associate Professor, 
University of New Mexico, Albuquerque, NM; and Ms. Michelle 
Accardi, Director, State Policy and Outreach, National Board 
for Professional Teaching Standards from Arlington, Virginia.
    I want to remind the witnesses that your full written 
testimony will be made a part of the official hearing record. 
Please try to keep your statements to five minutes or less so 
that we may have more time for questions.
    I look forward to hearing your testimony beginning with Ms. 
Sparks Robinson. Please proceed.

      STATEMENT OF LILLIAN SPARKS ROBINSON, COMMISSIONER, 
           ADMINISTRATION FOR NATIVE AMERICANS, U.S. 
            DEPARTMENT OF HEALTH AND HUMAN SERVICES

    Ms. Robinson. Thank you, Chairman Barrasso, Vice Chairman 
Tester and members of the Committee.
    It is my honor to testify before this Committee on behalf 
of the Department of Health and Human Services on Native 
language preservation and maintenance.
    I am a member of the Rosebud Sioux Tribe, which is located 
in South Dakota. I serve as the Commissioner for the 
Administration for Native Americans, which is part of the 
Administration for Children and Families at HHS.
    We are pleased that this Committee is considering S. 1163, 
the Native American Languages Reauthorization Act of 2015 which 
reauthorizes the Native American language provisions of the 
ANA's authorizing statute, the Native Americans Programs Act of 
1974, as well as the Native Language Immersion Student 
Achievement Act.
    ANA's mission is to support Native American communities to 
be self-determining, healthy, economically self-sufficient, and 
culturally and linguistically vibrant.
    ANA supports three program areas: Native American 
languages, environmental regulatory enhancement, and social and 
economic developments.
    Since 2010, ANA has held two separate annual competitions 
for language projects. This year ANA intends to add an 
additional language competition to fund a place space 
demonstration that will address gaps in community coordination 
across the Native language educational continuum.
    We believe that language revitalization is essential to 
continuing Native American culture and strengthening self 
determination. Research tells us that the use of Native 
American languages builds identity and assists communities in 
moving towards social cohesion and self sufficiency.
    Native American values and traditions are embedded in 
language and there is growing evidence that Native language and 
culture act as protective factors against suicide and suicidal 
ideation, substance abuse disorders and other risky behaviors.
    ANA funds opportunities to assess, plan and develop and 
implement projects to ensure the survivor and vitality of 
Native languages.
    Over the years, ANA has funded many successful projects 
that have resulted in increased usage and fluency of Native 
languages. For example, Dakota Wicohan, a language program in 
Minnesota, trained over eight Dakota language apprentices to 
speak Dakota and receive language teacher certifications.
    Their language levels increased by at least two levels and 
the apprentices gained relevant classroom teaching experience, 
and received language certifications from accredited programs.
    Similarly, ANA assisted the Piegan Institute in Montana to 
improve the Blackfeet speaking ability of children enrolled at 
the Cuts Wood School. The project expanded upon the school's 
pre-existing full day immersion program by offering more 
learning activities outside of the classroom, including the 
Blackfeet Elder Committee collaborating with project staff and 
students on a radio project featuring Blackfeet language 
lessons.
    As a result of this project, all 30 children enrolled at 
the school reached an advanced proficient level of Blackfeet.
    Through ANA funding, the Native Village of Afognak in 
Alaska provided immersion instruction through teacher 
mentorship and instructional resource development. The project 
mentored 16 Alutiiq language teachers in a structured immersion 
model.
    By the end of the project, 16 teachers received training 
and were better prepared to pass on the language. Two teachers 
were locally certified and all teachers increased at least one 
or two levels on an Alutiiq-adapted language scale.
    The demand for funding under our Native language programs 
remains high. Based on grantee feedback, we believe that the 
authority to fund Native language projects for longer periods 
up to five years would result in increased sustainability of 
the gains made.
    Grantees would have more time to build a community of 
speakers and language learners, strengthen partnerships, and 
secure additional funding as projects move beyond the initial 
planning and implementation stages.
    Additional feedback from ANA grantees also indicates that 
lowering the required number of participating students from ten 
to five for language nests, and from fifteen to ten for 
survival schools, would allow more communities to apply.
    Listening sessions and tribal consultation indicate that 
the extra investment in Native American language programs is 
critical to our communities. As demonstrated by research, 
Native language and culture fosters higher outcomes from Native 
youth due to lower levels of depression, increased academic 
achievement, and strengthened problem-solving skills.
    When educational institutions recognize that Native culture 
and language are inherent strengths, we increase the self-worth 
and optimism of our youth. It is by going back to traditional, 
ancestral, indigenous ways of knowing based in culturally and 
linguistically specific values and norms, that we believe 
Native American communities will thrive on their own terms.
    Finally, as an administration, we are looking for ways to 
be more responsive to the needs of Native American communities, 
to develop and contribute to an evidence base for culturally 
and linguistically responsive programming and to develop with 
our partners culturally appropriate measurement tools and 
research and evaluation designs that inform policy and 
practice.
    We are thankful for the continued support of this Committee 
and look forward to working with Congress to reauthorize the 
Native American Programs Act, including the Esther Martinez 
Native Languages Act.
    I am happy to answer any questions.
    [The prepared statement of Ms. Robinson follows:]

     Prepared Statement of Lillian Sparks Robinson, Commissioner, 
  Administration for Native Americans, U.S. Department of Health and 
                             Human Services
    Chairman Barrasso, Vice Chairman Tester, and members of the 
Committee, it is my honor to testify before this Committee on behalf of 
the Department of Health and Human Services on S. 1163, S. 1419, and 
other related matters involving Native language preservation and 
maintenance. I am a member of the Rosebud Sioux Tribe, which is located 
in South Dakota. I serve as the Commissioner for the Administration for 
Native Americans (ANA), which is part of the Administration for 
Children and Families (ACF).
    ANA's mission is to support Native American communities to be self-
determining, healthy, economically self-sufficient, and culturally and 
linguistically vibrant. We achieve our mission by providing 
discretionary grants, training, and technical assistance to tribes and 
Native American communities, including American Indians, Alaska 
Natives, Native Hawaiians, and Native Pacific Islanders. ANA supports 
three program areas: Native American Languages, Environmental 
Regulatory Enhancement (ERE), and Social and Economic Development 
Strategies (SEDS). We are pleased that this Committee is considering S. 
1163, the Native American Languages Reauthorization Act of 2015, 
reauthorizing the Native American language provisions of the Native 
Americans Programs Act of 1974 (NAPA), as well as the Native Language 
Immersion Student Achievement Act.
    For fiscal year (FY) 2015, Congress appropriated approximately 
$46.5 million to ANA, which distributed approximately $40.5 million to 
Native American communities competitively. The President's FY 2016 
budget request would fund ANA at $50 million. In addition to providing 
competitive grants, ANA uses its funding to provide training and 
technical assistance to Native American communities, as required by 
Section 804 of NAPA.
    ANA believes that language revitalization is essential to 
continuing Native American culture and strengthening self-
determination. Research tells us that use of Native American languages 
builds identity and assists communities in moving toward social 
cohesion and self-sufficiency. Native American values and traditions 
are embedded in language and there is growing evidence that that Native 
language and culture act as protective factors against suicide and 
suicidal ideation, substance abuse disorders, and other risky 
behaviors. Historical and contemporary conditions, including widespread 
and persistent poverty, have resulted in Native American peoples 
experiencing significant health disparities and some of the harshest 
living conditions in the United States. Remarkably, at the same time, 
Native American peoples have met such significant conditions with 
extraordinary abilities to survive, to overcome, and to draw from 
culturally and linguistically-based tools to not just survive, but to 
thrive. Native languages are among the most critical and meaningful of 
these tools. ANA encourages applicants to involve elders and other 
community members in determining proposed language project goals and 
implementing project activities because community connectedness appears 
key to sustaining successful Native language projects. ANA funding 
provides opportunities to assess, plan, develop, and implement projects 
to ensure the survival and vitality of Native American languages.
    For over a decade, ANA awarded Native American language 
preservation and maintenance funds to eligible entities under the 
Native American Languages Act of 1992, but utilization of Native 
American languages continued to decline for a variety of reasons, 
including the English-only movement of many states in the mid-1990s to 
early 2000s, as well as the requirement for highly qualified teachers 
under the Elementary and Secondary Education Act, as amended (commonly 
referred to as the No Child Left Behind Act (NCLB)). We believe the 
number of Native American language teachers diminished under NCLB due 
to a lack of valid teacher assessments in Native American languages. 
Specifically, the tools used to measure teacher quality did not 
adequately address the unique attributes necessary for Native languages 
education. The lack of teacher assessments validated with Native 
American populations or accommodating Native languages resulted in 
fewer Native American language teachers being able to obtain or 
maintain the appropriate teaching certification. In response to this 
dramatic and continued decline, Congress passed the Esther Martinez 
Native American Languages Preservation Act of 2006. The law amended 
NAPA to specifically target grants for language immersion and 
restoration programs, two methods that have proven to be highly 
successful in creating fluent speakers who, in turn, revitalize, 
preserve, and maintain Native languages.
    In 2014 and again in 2015, ANA partnered with the Department of 
Education and the Department of Interior's Bureau of Indian Education 
to host a Native American Languages Summit. During the first summit we 
were able to include presentation from the Smithsonian Institution and 
in 2015 our partnership expanded to include the Institute for Museum 
and Library Services, the National Science Foundation, and the National 
Endowment for Humanities as key Summit planning partners and 
presenters. This expanded partnership facilitated a connection with the 
Association for Tribal Archives, Libraries, and Museums, (ATALM), who 
provided support, including scholarships for non-federal participants 
to attend the Summit. Participants included federal staff, researchers, 
tribal language programs, ATALM members and others involved in Native 
American language revitalization efforts.
    Building on the knowledge gained from the 2014 Native American 
Languages Summit, the goal of the 2015 Native American Languages Summit 
was to provide updates from the partners on their current efforts to 
provide support for Native American communities that are seeking to 
preserve and revitalize Native American languages. To the extent that 
there is a need for additional support in ensuring the livelihood of 
Native Languages, the Summit productively serves as a way to help 
institutions and agencies develop ways to better implement and fund 
coordinated evidence-based Native language instruction.
    Over the years, ANA has funded many successful projects that have 
resulted in increased usage and fluency of Native American languages. 
For example, Dakota Wicohan is an ANA funded language program in 
Minnesota that trained over eight Dakota Language apprentices to speak 
Dakota outside of class and receive language teacher certifications. 
Their language levels increased by at least two levels on the Grotto/
Fishman Scale. The apprentices gained relevant classroom teaching 
experience, and received language certifications from accredited 
programs. Due to the ANA funded project, the Dakota language can be 
heard in the local community outside the classrooms: in camps, at 
community activities, and even weekly radio broadcasts.
    Similarly, ANA assisted the Piegan Institute in Montana to improve 
the Blackfeet speaking ability of children enrolled at the Cuts Wood 
School. The project expanded upon the school's pre-existing full day 
immersion program by offering more learning activities outside of the 
classroom. In addition, the Blackfeet Elder Committee collaborated with 
project staff and students on a radio project, producing and airing 12 
hours of radio programming featuring Blackfeet language lessons and 
archived recordings of Blackfeet speakers. As a result of this project, 
all 30 children enrolled at the school reached an advanced proficient 
level of Blackfeet.
    Through ANA funding, the Native Village of Afognak in Alaska 
provided immersion instruction through teacher mentorship and 
instructional resource development. The project mentored 16 Alutiiq 
language teachers in a structured immersion model. As a result of the 
project, the number of people who are learning and teaching the 
language drastically increased. By the end of the project, 16 teachers 
received training and were better prepared to pass on the language. Two 
teachers were locally certified and all teachers increased at least one 
or two levels on an Alutiiq-adapted language scale.
    Since 2010, ANA has held two separate annual competitions for 
language projects, the Native American Language Preservation and 
Maintenance Program and the Esther Martinez Initiative (EMI). ANA's 
total investment in Native American language projects for FY 2010 to 
2015 is approximately $78 million. Between 2006 and 2015, ANA received 
998 applications for all Native American language projects. Of those, 
116 applications were specifically for EMI projects, which ANA began 
competing in 2010. \1\ Interest in the EMI program continues to grow. 
In 2013, we reviewed 14 applications and in 2014 and 2015 we reviewed a 
combined total of 54 applications across our two Native Language 
program areas.
---------------------------------------------------------------------------
    \1\ The Esther Martinez Initiative was enacted in 2006, but it was 
not its own funding category in ANA until FY 2008.
---------------------------------------------------------------------------
    In FY 2016, ANA intends to fund one or more Native Language 
Community Coordination Demonstration projects to build upon the 
successes of ANA's short-term, project-based Native Language funding. 
This new effort is intended as a place-based demonstration that will 
address gaps in community coordination across the Native language 
educational continuum.
    The FY 2016 budget request for the Administration on Native 
Americans included an additional $3 million to support the Generation 
Indigenous (Gen-I), an Administration-wide initiative launched in early 
2015 that is focused on improving the lives of Native youth through new 
investments and increased engagement across the Federal Government. The 
budget request supports this initiative through investment in Native 
American language instruction, such as the Native Language Community 
Coordination Demonstration.
    In addition, the FY 2016 budget request supports funding for Native 
language programs at an additional $2.5 million for an anticipated 12 
new Native language Preservation and Maintenance grants, $1.5 million 
for an anticipated six Esther Martinez Native Language Immersion 
grants, and $1.5 million for an anticipated 4-6 new Native Language 
Community Coordination demonstration projects in addition to on-going 
Native Language continuation grants. This funding will more than ensure 
that ANA meets its target of $13 million in language awards.
    The demand for funding under both the Preservation and Maintenance 
and Esther Martinez Immersion (EMI) Acts remains high. In addition, 
based on grantee feedback, we believe that the authority to fund EMI 
and Preservation and Maintenance projects for longer periods (up to 
five years, rather than the current three years) would result in 
increased sustainability of the gains made. Grantees would have more 
time to build a community of speakers and language learners, strengthen 
partnerships, and secure additional funding as projects move beyond the 
initial planning and implementation stages. Additional feedback from 
ANA grantees also indicates that lowering the required number of 
participating students from ten to five for language nests, and from 
fifteen to ten for survival schools, would allow more communities to 
apply.
    Listening sessions and tribal consultation indicate that the extra 
investment in Native American language programs is critical to our 
communities. As demonstrated by research by Cornel Pewewardy and 
Patricia Hammer, Harold Sorkness and Lynn Kelting-Gibson, and Janine 
Pease-Pretty On Top, Native language and culture fosters higher 
outcomes from Native youth due to lower levels of depression, increased 
academic achievement, and strengthened problem-solving skills. When 
educational institutions recognize that Native culture and language are 
inherent strengths, we increase the self-worth and optimism of our 
youth. It is by going back to traditional, ancestral, indigenous ways 
of knowing based in culturally and linguistically specific values and 
norms, that we believe Native American communities will thrive on their 
own terms.
    With respect to ANA's other program areas, the Social and Economic 
Development Strategies (SEDS) program continues to be the grant program 
for which we receive the most applications. In FY 2015, ANA reviewed a 
total of 300 applications, 210 of which were for SEDS. Of these 210 
applications, ANA was able to provide funding for 29 new awards at 
approximately $7.8 million. This provided funding for 14 percent of the 
applications received. This total included special initiatives like the 
Native Asset Building Initiative, Social and Economic Development 
Strategies for Alaska, and the Sustainable Employment and Economic 
Development Strategies grants that target ANA investment towards 
economic empowerment, but still within the framework of community-
driven projects. Finally, ANA is always looking for ways to be more 
responsive to the needs of Native American communities, to develop and 
contribute to an evidence base for culturally and linguistically 
responsive programming, and to develop, with our partners, culturally 
appropriate measurement tools and research and evaluation designs that 
inform policy and practice.
    We are thankful for the continued support of this Committee in 
achieving the ANA mission. We look forward to working with Congress to 
reauthorize the Native American Programs Act including the Esther 
Martinez Native Languages Act, which continues to receive 
appropriations. From a program administration perspective, 
reauthorizing NAPA as a whole would also provide an opportunity to 
comprehensively update program regulations, which is necessary for 
improved program oversight and accountability.
    ANA looks forward to the day when all ``Native Communities are 
Thriving,'' and we look forward to working with you to make that 
happen.
    I would be happy to answer any questions.

    The Chairman. Thank you so much for joining us. Thank you 
for your testimony.
    Mr. MoQuino.

STATEMENT OF ROBERT MOQUINO, FIRST LIEUTENANT GOVERNOR, PUEBLO 
                            OF ACOMA

    Mr. MoQuino. [Greeting in Native language.]
    Thank you Chairman Barrasso, Vice Chairman Tester, and 
members of the Committee for allowing me to present this 
testimony on behalf of the Pueblo of Acoma.
    The Pueblo of Acoma is engaged in an ongoing battle to save 
our language. As our elders tell us, as we lose our ability to 
speak our Acoma language, we are losing the very essence of our 
traditional cultural values.
    At the beginning of time immemorial, the Acoma language, 
Keres, was given to the Acoma people by two spiritual mothers. 
These mothers also gifted us the core values of family, culture 
and tradition.
    The Acoma language is essential for sustaining the culture 
and value of our people. Our existence, identity and those of 
future generations depends upon the continuation of our 
language.
    For instance, without Keres, one cannot fully understand 
our creation story which explains that we were destined for Sky 
City. Our religious and cultural ceremonies are conducted in 
Keres.
    Each year, our tribal leaders speak to the Acoma people at 
Sky City exclusively in Keres. Without knowledge of the 
language, our people cannot understand or participate fully in 
our culture and civic life.
    At Acoma, we have not forgotten our language. We just do 
not use it. Therefore, we are focused on revitalizing use of 
our language within our community, including teaching Keres to 
our children in the local schools and developing and Acoma oral 
history curriculum.
    We are also developing home study program that provides 
materials for home use intended to build among and encourage 
conversations between our elders and our youth.
    We had an Esther Martinez grant that allowed Acoma 
development of a language nest for our smallest ones, ages 
birth to five. Seeing these younger children going to their 
language nest and hearing them learn to speak their native 
tongue to the elders brought joy to so many in our community.
    However, this was limited by law to three years and the 
language nest had to be discontinued after funding ran out. 
Under S. 1163, this grant can be up to five years, something 
Acoma strongly supports.
    The Pueblo of Acoma supports S. 410, S. 1163 and S. 1928 as 
important steps toward assisting tribal communities in their 
efforts to preserve, maintain and revitalize their Native 
language.
    In particular, S. 1163 would reauthorize the ANA Language 
Grant Program. It would also lower the number of children 
required to form language nests and extend the duration of 
grants up to five years. This added flexibility is important to 
enable tribes to design programs that best fit their needs.
    We have had difficulties getting our Keres language 
teachers certified by the State of New Mexico. We believe that 
our elders are the best qualified to teach our language and 
pass on our cultural knowledge. Therefore, Acoma supports the 
expansion of programs to support Native language and culture in 
S. 410.
    Acoma also supports the bill's exemption to Native language 
teachers from ESEA qualification requirements.
    Finally, Acoma supports S. 1928 because it will encourage a 
younger generation to become Native language teachers. This is 
especially important as we are gradually losing our fluent 
elderly speakers.
    In closing, I would like to thank you. Thank you for this 
opportunity to provide testimony about our Aak'um'e Dzeeni, our 
Acoma language. Thank you for taking up these important bills 
to help us in our struggle against language loss.
    These legislative efforts are important not just to Acoma, 
but to tribal people throughout the United States.
    With that, can I say a few words in my Acoma language.
    [Phrase in native language.]
    Mr. MoQuino. Translation, again, thank you for hearing me 
testify with our Acoma language.
    With that, all my prayers and blessings go out to you and 
your families. Thank you very much.
    [The prepared statement of Mr. MoQuino follows:]

Prepared Statement of Robert MoQuino, First Lieutenant Governor, Pueblo 
                                of Acoma
    ``As we lose our ability to speak our Acoma language, we are losing 
the very essence of our traditional cultural values. All age groups 
need to demonstrate Acoma language use.''--Acoma Antelope Clan Elders
Introduction
    Thank you Chairman Barrasso, Vice Chairman Tester, and Members of 
the Committee for allowing me to present this testimony on behalf of 
the Pueblo of Acoma. My name is Robert MoQuino, and I am the 1st 
Lieutenant Governor of the Pueblo of Acoma. I want to start by saying 
Guuwaatsii. Guuwaatsii is how we say hello in our Aak'um'e Dzeeni 
(Acoma Language), known as Keres. Guuwaatsii is the word that we use to 
welcome someone into the Acoma world. So, I say Guuwaatsii to each of 
you here today.
The Importance of Indigenous Languages
    The Pueblo of Acoma is engaged in an ongoing battle to maintain, 
preserve, and revitalize our native language of Keres. As one scholar 
has described, ``[l]anguage loss in the United States is steady and 
pronounced. At the beginning of the twentieth century most American 
Indian people spoke their native tongues as a first or second language. 
By the end of the century, of some 300 original North American 
languages, just one-half were still spoken.'' \1\ Today, experts 
predict that half of the over 6,000 languages currently spoken in the 
world will disappear by the end of this century if nothing is done to 
prevent the extinction of languages worldwide. \2\
---------------------------------------------------------------------------
    \1\ Charles Wilkinson, Blood Struggle: The Rise of Modern Indian 
Nations 360 (2005).
    \2\ See Endangered Languages, UNESCO.ORG, http://www.unesco.org/
new/en/culture/themes/endangeredlanguages/.
---------------------------------------------------------------------------
    Acoma is fighting against the tide of language loss because, as the 
elders of our Antelope Clan have stated: ``As we lose our ability to 
speak our Acoma language, we are losing the very essence of our 
traditional cultural values. All age groups need to demonstrate Acoma 
language use.'' For the Acoma people, our language is inextricably 
intertwined with our cultural survival. At the beginning of time 
immemorial, Aak'um'e Dzeenii (Acoma Language) was gifted to us by 
Aak'um'e Hanu (Acoma People) by our two spiritual deities (Spiritual 
Mothers) Iatiku and Tsi'tiwwshti naak'u. Along with Aak'um'e Dzeenii, 
they gifted us the core values of family, culture, and tradition. 
Aak'um'e Dzeenii is essential for sustaining the culture and values of 
the people. Our existence and identity--and those of future 
generations--depends upon the continuation of our language.
    Language is the conduit by which our culture is transmitted. It is 
through our native language that we pass on to the next generations the 
Acoma world view and our traditional values. For instance, without 
Keres one cannot fully understand our emergence story, which explains 
that we were destined for Sky City. Without this language our young 
people cannot fully participate in their religious and cultural 
ceremonies. Every year, for example, our Governor gives an address at 
Sky City that is all in Keres, and without knowledge of the language 
our people cannot understand and participate in this important part of 
our culture and our civic life.
    We are struggling to keep our language alive because without day-
to-day use, our people are becoming less and less fluent in Keres. Our 
elders--invaluable language resources for our community--are passing 
on, taking with them the knowledge of generations. The need to pass 
Keres on to our young people has never been more urgent. We ask for 
your full support in helping us maintain our identity as Acoma people 
by helping us keep our language alive.
Acoma Language Programs and Initiatives
    Our Aak'um'e Dzeeni (Acoma Language) Program Coordinator, Gregg 
Shutiva has stated that many Acoma Tribal citizens say that we are 
losing our language, but his response to that is that ``we have not 
forgotten our language, we just do not use it.'' Our Acoma Language 
Retention Program (ALRP), therefore, seeks to revitalize and maintain 
the Acoma Keres language in our community, and it has been in operation 
for over a decade.
    The ALRP focuses on teaching the Keres language to children through 
Keres language instruction in the local schools, including Laguna--
Acoma Jr. Sr. High School, Cubero Elementary School, St. Joseph Mission 
School, and Sky City Community School. However, we sometimes have 
difficulty getting our Keres language teachers certified by the State 
of New Mexico. The experts and teachers in our Keres language do not 
always have the credentials required by the State. However, we believe 
that our community is best prepared to select persons qualified to 
teach our language and pass on our cultural knowledge.
    The ALRP has also developed an Acoma Oral History Curriculum and 
various arts and crafts programs for youth as well as adults. 
Additionally, the ALRP offers three-week Keres language immersion camps 
in the summer for children ages 5-16. ALRP activities depend on Tribal 
appropriations as well as federal, state, and private grants.
    Some of our grant-funded activities have had to be discontinued 
because of a lack of federal funding. For instance, Acoma received a 
$271,587 language preservation and maintenance grant from 2011-2014 
from the Administration for Native Americans (ANA)--an Esther Martinez 
grant. This grant allowed Acoma to develop a ``language nest'' for our 
littlest ones--ages birth through 5. Seeing these youngest children 
going to their language nest and hearing them learn to speak their 
native language to their elders brought joy to so many in our 
community. However, this program had to be discontinued after funding 
ran out.
    We recently applied for a renewal of the Esther Martinez grant to 
sustain our language preservation and maintenance efforts, but our 
application was denied. The denial letter stated that ``[d]ue to the 
number of applications received and the demand for project dollars, ANA 
could not fund all eligible applicants.'' Our application was therefore 
``not selected for funding due to [ANA's] limited resources.''
    Currently, the ALRP is focused on building a Home Study Program. 
This program focuses on bringing the Keres language to the people in 
their own environments, where multiple generations and individuals with 
various levels of proficiency may all learn together. Our Home Study 
Program was launched in FY 2014 and served 27 entities--households as 
well as the staff of various Tribal programs. So far, this program has 
been very popular and is working to increase day-to-day Keres use, but 
additional funds are needed to sustain Acoma's innovative approaches to 
language revitalization.
Support for S. 410, S. 1163, and S. 1928
    The Pueblo of Acoma supports the Native language provisions of S. 
410, S. 1163, and S. 1928 as important steps toward assisting Tribal 
communities in their efforts to preserve, maintain, and revitalize 
their Native languages. In particular, S. 1163 would amend the Native 
American Programs Act of 1974 to reauthorize the ANA grant program 
through FY 2020. This reauthorization is critical, as there are many 
Native language programs in need of support. As the ANA's letter 
declining Acoma's application for Esther Martinez funding indicated, 
resources are extremely limited such that not all eligible applicants 
are able to receive these vital resources. Additionally, Acoma supports 
S. 1163's revisions to the grant program, which would lower the number 
of children required to form language nests and language survival 
schools and extend the duration of grants to up to five years. This 
added flexibility is important to enable Tribes to design programs that 
best fit their needs.
    Acoma also supports the expansion of programs to support Native 
language and culture in S. 410. The bill's exemption of Native language 
teachers from Elementary and Secondary Education Act (``ESEA'') 
qualification requirements and its mandate that states develop a 
licensure or certification process for Native language teachers. As 
stated above, Acoma has had difficulty getting Native language teachers 
certified in New Mexico public schools. Tribal standards and processes 
for selecting the individuals entrusted with passing on our Native 
languages--and with them, important aspects of our cultures and 
traditions--should be respected by states. S. 410 would also amend the 
Native American Programs Act of 1974 to reauthorize appropriations for 
grants through 2019. This reauthorization is critical to providing 
Tribal language programs much-needed support.
    Finally, Acoma supports S. 1928's provisions to support and train 
Native language educators. The bill would cancel loans for Native 
language immersion teachers and create a Native Language Teacher 
Training Program. As our communities are losing more and more fluent 
speakers as elders pass on, it becomes increasingly important that 
younger generations dedicate themselves to becoming fluent in their 
Native languages and becoming equipped to pass on these languages to 
others.
Conclusion
    In closing, I would like to say Da'waeh, which means thank you. 
Thank you for this opportunity to provide testimony about our Aak'um'e 
Dzeeni, our Acoma language. And thank you for taking up these important 
bills to help us in our struggle against language loss. These 
legislative efforts are important not just to Acoma, but to Tribal 
people throughout the United States.

    The Chairman. Thank you very much, Mr. MoQuino. We 
appreciate your testimony and those good wishes.
    Thank you.
    Dr. Martinez.

STATEMENT OF GLENABAH MARTINEZ, ASSOCIATE PROFESSOR, UNIVERSITY 
                         OF NEW MEXICO

    Ms. Martinez. [Greeting in Native language.]
    Chairman Barasso, Vice Chairman Tester, and distinguished 
members of the Senate Committee on Indian Affairs, my name is 
Glenabah Martinez. I am from the Pueblo Nation of Taos and the 
Navajo Nation. I am honored to be present today at your 
hearing.
    I was born and raised at Taos Pueblo where I learned about 
my cultural and linguistic traditions through daily life. My 
parents and grandparents were instrumental in teaching me how 
to speak my Native language, how to conduct myself in ceremony 
and how to live in harmony with the earth.
    I honor my grandparents and their wisdom as they guided 
their children and grandchildren to honor the integrity of our 
cultural sovereignty at Taos Pueblo and to set goals for 
academic achievement in western education without compromising 
our cultural foundation and core values as indigenous people.
    On behalf of the College of Education at UNM, I appreciate 
the opportunity to present to the Senate Committee on Indian 
Affairs our support of the BUILD Act. My testimony will focus 
on two components, on the language and cultural education 
component and teacher and administrator cultural competence of 
Native American learners.
    Today, as this Committee reviews this vital and important 
Act, our hope is that this body will affirm its commitment to 
excellence in educational services provided for Native 
students, families, Native nations and leadership.
    As stated prior by the two speakers here, we also support 
the reauthorization of the Esther Martinez Native American 
Languages Act because it is critical for tribal language 
initiatives that target early childhood populations.
    While standard Federal programs such as Head Start have 
been the primary source of preschool and early childhood 
education, Native language maintenance has often been afforded 
less emphasis in those programs in the mistaken belief that 
earlier and earlier introductions to English will benefit our 
children.
    In reality, it has resulted in those preschool generations 
at a loss for Native language development.
    In retrospect, many Native tribes are now reconsidering how 
important it is for young children to establish a firm 
foundation in the Native language. This has moved an increasing 
number of them to initiate early childhood language 
initiatives.
    However, as in school-based language programs, there is 
much needed support for continued professional development for 
preschool and early childhood educators.
    A second component of the Act emphasizes the importance of 
tribal leaders and members to teach Native languages in 
schools. In New Mexico, we have the 520 Alternative Certificate 
that was established in 2002.
    This process allows fluent speakers to teach Native 
languages in public schools. The tribe determines the 
proficiency of the Native language person who applies for the 
certificate and the State's Public Education Department follows 
the lead of the tribe in issuing this three year and nine year 
renewal certificate.
    A critical aspect of this process is the training needed 
for speakers who have never taught language in a school 
setting. This is currently available to tribes in New Mexico 
through UNM. UNM offers these services as IHE and does outreach 
to all 22 tribal nations in our State as well as in others.
    The third component of the bill seeks to allow standards 
assessments, classroom lessons and teaching strategies to be 
modified to accommodate diverse cultural and language learning 
needs.
    New Mexico is a geographic site with 22 sovereign Native 
nations. Students in pre-K to 12 settings in our State can be 
found in both urban and rural settings attending a wide range 
of schools.
    It is equally important to recognize cultural education 
that takes place within specific Native nations through active 
participation in culturally specific ceremonial life. This non-
western centered education embarks centuries old knowledge and 
skills that pre-date European contact.
    It is critical that curriculum instruction and assessment 
not only be culturally relevant but also be culturally 
sustaining.
    The 13 Native faculty in the College of Education at UNM 
recognizes the urgency of preparing Native and non-Native 
teachers and administrators to provide Native students in New 
Mexico with a quality education.
    It is in this context that we developed 21 student learning 
outcomes that pre-service teacher education candidates should 
meet in their programs of study for certification from early 
childhood to high school.
    In conclusion, we make the following recommendations. One, 
we recommend that the BUILD Act provide for expansion of the 
Esther Martinez Act to include a specific focus on training 
support for early childhood teacher education programs.
    Two, we recommend the BUILD Act provide the support for 
training collaborations between tribal nations and local tribal 
colleges and universities with faculty expertise and experience 
with Native language initiatives.
    Three, we recommend the BUILD Act provide support for 
university-based teacher programs and initiatives focused 
specifically on developing teacher and administrator cultural 
competency in working with Native American students building 
teacher pipelines to attract Native American students into the 
teaching profession.
    Finally, we recommend the BUILD Act support collaborative 
initiatives between tribes and local colleges of education to 
assist in technical assistance and capacity building.
    I applaud this Committee and Senator Tom Udall for taking 
action on the quality of education Native American students, 
families and Native nations receive. I believe it is in this 
spirit of love for humanity that injustices can be addressed 
and corrected for our youth, families and indigenous peoples as 
a means of ensuring educational justice and equity.
    Thank you, Mr. Chairman and Mr. Vice Chairman for granting 
me this opportunity to speak to you today. I look forward to 
addressing any questions you or your Committee members may 
have.
    Thank you.
    [The prepared statement of Ms. Martinez follows:]

     Prepared Statement of Glenabah Martinez, Associate Professor, 
                        University of New Mexico
                        
                        
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                       
                        
                        
                        
  


    The Chairman. Thank you very much, Doctor Martinez.
    Ms. Accardi.

        STATEMENT OF MICHELLE ACCARDI, DIRECTOR, STATE 
            POLICY AND OUTREACH, NATIONAL BOARD FOR 
                PROFESSIONAL TEACHING STANDARDS

    Ms. Accardi. Thank you, Chairman Barrasso, Vice Chairman 
Tester and distinguished Committee members for the opportunity 
to speak on the Native Educator Support and Training, or NEST, 
Act.
    The National Board for Professional Teaching Standards is a 
proud supporter of the NEST Act. My name is Michelle Accardi 
and I am a National Board Certified Teacher.
    For fourteen years I was a special education teacher in 
Albuquerque, New Mexico's public schools. I also had the 
privilege of working with students as a teacher and consultant 
at two Bureau of Indian Education-affiliated schools on the 
Laguna and Zia Pueblos in New Mexico.
    In November of 2011, I became the Director of State Policy 
for the National Board for Professional Teaching Standards in 
Arlington, Virginia.
    In my office in Arlington, I have a picture of my last 
class in Albuquerque that rests alongside a small piece of 
pottery. The pot was a farewell gift from Douglas and his 
grandparents. Douglas was a Native American student that I 
worked with for three years.
    He had faced many hardships in his young life and was being 
raised by his grandparents. As much as they wanted to keep him 
close to his family and their roots in their tribal community, 
his special needs could not be adequately addressed by the 
teachers there. They made the difficult choice to bring him to 
live in Albuquerque.
    I am proud to say that I was able to work with Douglas and 
help him to make great progress in his reading, math, and 
social skills. I still smile when I think of the jokes he loved 
to tell and how excited he would get when he had the joy of 
telling his grandmother that he had done well on a lesson.
    It breaks my heart when I think about how much he missed by 
not being in the community that he loved and not learning his 
traditions, culture, language, and family. Native families 
should not have to relocate to find the best teachers for their 
children.
    As I work at the National Board to develop initiatives and 
policies to bring more Board-certified teachers into the 
classrooms that need them most, I see the butterfly pattern on 
that small pot and think of Douglas.
    I thank you for the opportunity to discuss the National 
Board Certification and our outreach to Native American 
educators and educators who teach Native American students, and 
why the NEST Act is critical for expanding these efforts.
    The National Board is a nonprofit organization dedicated to 
the advancement of the teaching profession for the benefit of 
all teachers and all students. The National Board's rigorous 
certification process defines, develops, and assesses quality 
teaching, with a proven connection to improved student learning 
and achievement.
    Similar to the professional boards in the fields of 
medicine, architecture and engineering, National Board 
Certification assures the public, parents, families, and 
communities, that the teachers who educate our children are 
experts in their field and have the skills to help all students 
learn.
    Two critical components of Board certification are 
reflective practice and collaboration among peers, family and 
community to improve student learning. As I went through the 
process, I developed a laser-like focus in identifying what did 
well and what I could improve the next time to make sure my 
students' learning advanced.
    More than a decade of research from across the country 
confirms that students taught by board-certified teachers learn 
more than students taught by other teachers. The positive 
impact of having board-certified teachers is even greater for 
minority and low income students.
    Unfortunately, currently there are only approximately ten 
board-certified teachers in BIE-affiliated schools nationwide. 
In contrast, as of November 2015, more than 110,000 teachers 
across the Nation have achieved board certification, including 
152 in Montana, 585 in Wyoming and 969 in New Mexico.
    We all know the tremendous struggles faced by Native 
American students and that students at BIE schools historically 
have lower graduation rates and lower scores on national and 
State assessments than their counterparts in many public 
schools.
    To help address these inequities, in 2014, the National 
Board began a partnership with the Bureau of Indian Education 
designed to make board certification the norm among BIE 
teachers. More specifically, this projects aims to support the 
BIE in reaching its goal of 1,000 board certified teachers in 
BIE-affiliated schools by the year 2020.
    Any plan to grow the number of NBCTs serving Native 
students must address the challenges and context of the schools 
themselves while recognizing the logistical, pedagogical and 
cultural advantages of having students taught by members of 
their community.
    This project will support BIE-affiliated teachers in the 
development and validation of their knowledge and skills, 
setting a clear pathway towards board certification.
    The BIE is currently funding candidate support, bonuses for 
certification completion and salary increases for teachers who 
achieve certification. The BIE is also funding mentoring and 
support for candidates for board certification.
    Professional development of existing staff supported by 
resources from the National Board is a critical strategy in 
this work. The initiative provides support to increase the 
instructional capacity of those teachers who are not yet 
eligible or ready for certification.
    For instance, the National Board is providing teachers in 
BIE schools with access to videos and reflective papers of 
board-certified teachers through a newly-launched ATLAS online 
library.
    After the first year of the project, I am happy to report 
that more than 350 teachers in BIE-affiliated schools have 
begun their journey to board certification. The work is off to 
a promising start.
    The NEST Act is critical to accelerating these efforts and 
expanding their impact on teachers and students. The National 
Board is particularly pleased that the bill provides support 
for teachers to pursue board certification and recognizes 
teachers who have achieved certification through additional 
compensation.
    The bill, in addition to promoting board certification 
among teachers in BIE-affiliated schools, helps to strengthen 
teaching and learning in tribal schools and other schools with 
high concentrations of Native American students.
    On behalf of the National Board, I thank you for the 
opportunity to speak with you regarding these critical issues 
and I am happy to take any questions.
    [The prepared statement of Ms. Accardi follows:]

  Prepared Statement of Michelle Accardi, Director, State Policy and 
      Outreach, National Board for Professional Teaching Standards
    Thank you Chairman Barrasso, Vice Chairman Tester, and 
distinguished committee members for the opportunity to speak on the 
Native Educator Support and Training, or NEST, Act. The National Board 
for Professional Teaching Standards is a proud supporter of the NEST 
Act.
    My name is Michelle Accardi and I am a National Board Certified 
Teacher. For fourteen years I was a special education teacher in New 
Mexico in the Albuquerque Public Schools. I also had the privilege of 
working with students as a teacher and consultant at two Bureau of 
Indian Education affiliated schools (BIE schools) on the Laguna and Zia 
Pueblos in New Mexico. In November of 2011, I became the Director of 
State Policy for the National Board for Professional Teaching Standards 
in Arlington, Virginia.
    In my office in Arlington, I have a picture of my last class in 
Albuquerque that rests alongside a small piece of pottery. The pot was 
a farewell gift from Douglas and his grandparents. Douglas was a Native 
American student that I worked with for three years. He had faced many 
hardships in his young life and was being raised by his Grandparents. 
As much as they wanted to keep him close to his family and his roots in 
their community, his special needs could not be adequately addressed by 
the teachers there. They made the difficult choice to bring him to live 
in Albuquerque. I am proud to say that I was able to work with Douglas 
and help him to make great progress in his reading, math, and social 
skills. I still smile when I think of the jokes he loved to tell and 
how excited he would get when he was able to tell his grandmother that 
he had done well on a lesson. I am still sad when I think of how much 
he missed by not being able to stay in the community he loved, learning 
his traditions, culture, language, and family. Going and visiting home 
every few weekends simply was not the same. Native families should not 
have to relocate to find the best teachers for their child. As I work 
at the National Board to develop initiatives and policies to bring more 
Board Certified teachers into the classrooms that need them most, I see 
the butterfly pattern on that small pot and think of Douglas.
    I thank you for the opportunity to bring you information about 
National Board Certification and our outreach to Native American 
educators and all educators who teach Native American students--and why 
the NEST Act is critical for expanding these efforts.
    For 25 years, the National Board for Professional Teaching 
Standards has been at the forefront in establishing the highest measure 
of teaching excellence. The National Board for Professional Teaching 
Standards is a nonprofit organization dedicated to the advancement of 
the teaching profession for the benefit of all teachers and all 
students. The National Board's rigorous certification process defines, 
develops, and assesses quality teaching, with a proven connection to 
improved student learning and achievement. National Board Certification 
assures the public--parents, families, and communities--that the 
teachers who educate our children are experts in their field and have 
the skills to help all students learn.
    More specifically, National Board Certification is an advanced 
credential which indicates that a teacher demonstrates high levels of 
content and pedagogical knowledge and skill for their specific area of 
teaching. Similar to professional boards in the fields of medicine, 
architecture, and engineering, the National Board for Professional 
Teaching Standards has established the standards and assessments to 
measure what effective teachers should know and be able to do in their 
classrooms. Board Certified teachers provide evidence that they are 
lifelong learners who are able to translate their knowledge to 
students.
    Reflection is at the center of everything that a Board Certified 
teacher does. Every lesson can be improved, every child can learn more 
tomorrow. The certification process requires that teachers not only 
submit video of their teaching, but detailed analytic papers explaining 
their evidence that they are meeting the standards and reflecting on 
what they can do better. As I went through the process, I developed a 
laser-like focus on identifying what I did well and what I could 
improve the next time to ensure my students learning advanced. If I 
expect my students to improve every day, I must always be seeking ways 
to improve as their teacher.
    Board certification emphasizes collaboration among peers and family 
and community engagement. Board-certified teachers develop 
relationships with the family members, community leaders, and other 
teachers and professionals who support that student. They also seek to 
collaborate with other expert teachers in their school to improve 
student learning, analogous to the natural and common consultations 
among medical specialists working with the same patient.
    More than a decade of research from across the country confirms 
that students taught by Board-certified teachers learn more than 
students taught by other teachers. A study mandated by Congress and 
conducted by the National Research Council reached this conclusion in 
2008 in its comprehensive review of studies of National Board 
Certification up until that time. \1\ Estimates of the increase in 
learning by students of Board-certified teachers average an additional 
one to two months of learning gains. \2\ The positive impact of having 
a Board-certified teacher is even greater for minority and low-income 
students. \3\
---------------------------------------------------------------------------
    \1\ National Research Council, Assessing Accomplished Teaching: 
Advanced-Level Certification Programs (Washington, D.C.: The National 
Academies Press, 2008).
    \2\ Strategic Data Project (2012). SDP Human Capital Diagnostic: 
Los Angeles Unified School District. Center for Education Policy 
Research, Harvard University.
    \3\ LCavalluzzo, L.C. (2004). Is National Board Certification an 
effective signal of teacher quality? The CNA Corporation; D. Goldhaber 
and E. Anthony, ``Can teacher quality be effectively assessed?'' The 
Review of Economics and Statistics 89, no. 1 (2007): 134-50.
---------------------------------------------------------------------------
    Earlier this year, two separate groups of independent researchers 
released new studies finding Board-certified teachers are more 
effective at advancing student learning than non-Board-certified 
teachers. \4\ To cite one of those studies, researchers Dan Goldhaber 
and James Cowan focused on Washington State: ``Board-certified teachers 
are more effective than non-certified teachers with similar 
experience.'' \5\
---------------------------------------------------------------------------
    \4\ J. Cowan and D. Goldhaber, National Board Certification and 
Teacher Effectiveness: Evidence from Washington (Bothell, Wash.: The 
Center for Data and Research, University of Washington, 2015), http://
www.cedr.us/papers/working/CEDR%20WP%202015-3_NBPTS%20Cert.pdf; L. 
Cavalluzzo et al., From Large Urban to Small Rural Schools: An 
Empirical Study of National Board Certification and Teaching 
Effectiveness (Arlington, Va.: CAN Analysis and Solutions, 2015), 
https://web.mail.comcast.net/service/home//
?auth=co&loc=en_US&id=400532&part=2.
    \5\ J. Cowan and D. Goldhaber, National Board Certification and 
Teacher Effectiveness: Evidence from Washington (Bothell, Wash.: The 
Center for Data and Research, University of Washington, 2015), http://
www.cedr.us/papers/working/CEDR%20WP%202015-3_NBPTS%20Cert.pdf.
---------------------------------------------------------------------------
    Unfortunately, currently, there are only approximately 10 Board-
certified teachers in BIE-affiliated schools nationwide. In contrast, 
as of November 2015, more than 110,000 teachers across the nation have 
achieved National Board Certification, including 152 Board-certified 
teachers in Montana, 585 Board-certified teachers in Wyoming, and 969 
Board-certified teachers in New Mexico.
    We all know the tremendous struggles faced by Native American 
students and that students at BIE schools historically have lower 
graduation rates and lower scores on national and state assessments 
than many of their counterparts in public schools.
    To help address these inequities, in 2014, the National Board began 
a partnership with the Bureau of Indian Education to help teachers in 
BIE-affiliated schools become Board certified. The effort overall is 
designed to make Board Certification the norm among BIE teachers. More 
specifically, this project aims to support the BIE in reaching its goal 
of 1,000 Board certified teachers in BIE schools by the year 2020. Such 
a magnitude of accomplished teachers would constitute a critical mass 
leading the learning of BIE students to high levels.
    Any plan to grow the number of NBCTs must address the challenges 
and contexts of the schools themselves. For the BIE, the challenges of 
rural schools coupled with the logistical, pedagogical, and cultural 
advantages of having students taught by members of their community lead 
to a clear principle guiding this project's work. This project will 
support BIE teachers in the development and validation of their 
knowledge and skills--setting a clear pathway toward Board 
certification.
    The BIE is providing funding for candidate fee support, bonuses for 
certification component completion and salary increases for teachers 
who achieve certification. The BIE is also providing funding for 
mentoring and support of candidates for National Board Certification.
    In addition, the initiative provides support to increase the 
instructional capacity of teachers who are not yet eligible or ready 
for certification. For instance, the National Board is providing 
teachers in BIE schools with access to videos and reflective papers of 
Board-certified teachers through a newly-launched ATLAS online library. 
By fostering a dialogue among all 4,000 BIE teachers and supporting 
teachers in their pre-service and early-career development, the 
initiative builds a self-sustaining culture of professional learning 
and peer support. Professional development of existing staff, supported 
by resources from the National Board, is a critical strategy in this 
work given the difficulty BIE faces in attracting teachers and 
principals to remote locations.
    In short, the project is creating an expectation and a pathway for 
teachers in BIE-affiliated schools to achieve certification, which 
includes support and resources for achieving this goal.
    After the first year of the project, I'm happy to report that more 
than 350 teachers in BIE-affiliated schools have begun their journey 
towards board certification and are regularly participating in 
mentoring sessions led by Board-certified teachers to increase their 
instructional capacity, ultimately benefiting the students in these 
schools.
    This work is off to a promising start. The NEST Act is critical to 
accelerating these efforts and expanding their impact on teachers and 
students. The National Board is particularly pleased that the bill 
provides support for teachers to pursue Board certification and 
recognize teachers that have achieved Board certification through 
additional compensation, both of which encourage more teachers to 
strengthen their teaching so it meets the profession's high standards. 
The bill, through promoting Board certification among teachers in BIE-
affiliated schools, helps to strengthen teaching and learning in tribal 
schools and other schools with high concentrations of Native American 
students.
    On behalf of the National Board, I thank you for the opportunity to 
speak with you regarding these critical issues and I'm happy to take 
any questions.

    The Chairman. Thank you, Ms. Accardi.
    We will start questioning at this time and I would like to 
turn to Senator Udall.
    Senator Udall. Thank you so much, Mr. Chairman.
    Lieutenant Governor MoQuino, you mentioned in your 
testimony that Acoma had some difficulty getting Native 
language teachers certified by the State of New Mexico. Can you 
tell me more about the barriers you have encountered and how 
these barriers impacted students?
    Mr. MoQuino. We have had issues within the State of New 
Mexico because, as I mentioned, our elderly are the ones who 
speak fluently and that is who we look up to. The State wants 
them to go back to school to get a certified teacher 
certificate.
    We get comments from our communities of why do I have to go 
back to school to get a certified teacher certificate? Do they 
teach that class in Keres? I say, no, they do not. They say, 
why do we have to go back to school to get certified to teach 
our own Native language? That is the issue.
    Senator Udall. They are telling the elders who have spoken 
this language sometimes for 70 or 80 years that they have to go 
back and get a degree in order to learn how to teach the 
language to the younger people?
    Mr. MoQuino. Exactly.
    Senator Udall. That is a big barrier.
    Mr. MoQuino. Yes, it is.
    Senator Udall. We have to work on that. We really have to 
work on that one.
    You were the beneficiary of an Esther Martinez grant at the 
Acoma Pueblo. This grant allowed you to develop a language NEST 
only to be shuttered when the funding was withdrawn as you 
mentioned in your testimony.
    Mr. MoQuino. Right.
    Senator Udall. Can you tell us a little more about the 
importance of that program and the progress it was making?
    Mr. MoQuino. Sure. The language NEST is we get a lot of our 
young kids to learn and teach our traditional culture and 
language from birth on up to five years old. As I mentioned, 
that is very beautiful to hear a younger kid growing up saying 
in our Native language, as I mentioned, Guuwaatsii, hello.
    We want our kids to learn that language as we grow up. As 
tribal administration, in this position, we encourage our young 
men to learn the language because you never know when they 
might be in this position.
    That is how we encourage them. We would like that language 
NEST from Esther Martinez to keep going forward. That is what 
we see within our community with the people up at Acoma.
    Senator Udall. Thank you, Mr. MoQuino, for those comments.
    Turning now to Dr. Martinez, you have been spearheading 
some very innovative efforts at the University of New Mexico to 
recruit and retain more Native educators in New Mexico.
    Can you talk a bit more about the American Indian Educator 
Mentor Program and other initiatives that seem to be working?
    Ms. Martinez. This is one of about 13 programs. What we 
have here is in the written testimony but the mentor program 
was recently established by Dr. Christine Sims. We are the CPIs 
of this project. It has ECMC private funding. We only have 
funding for two years.
    With this project, we will be able to provide stipends. We 
cannot provide scholarships but we can provide stipends for 
people seeking certification in the secondary area in the STEM 
fields as well as history, language arts and physical 
education.
    We are hoping to attract young people who are maybe in 
their junior or senior years and may be working on a degree in 
biology, history or math and tell them about the great love of 
teaching and talk about the contributions they can make to 
society. That is one of the grants we have.
    Native faculty at the College of Education are all former 
practitioners, whether we were counselors, teachers or 
administrators. Our mere presence in the College of Education, 
you can see I look pretty Native, but to see someone like that 
on faculty and know they are pursuing research, like Terri 
Flowerday with the Indigenous Research Lab, that we are really 
trying hard to recruit and retain Native students at the 
graduate and under graduate level.
    Senator Udall. You have a career's worth of experience in 
teaching and Native education. Have you seen improvements over 
this time or do you think the current state of education for 
Native students is worse than a decade ago?
    Ms. Martinez. Quantitatively speaking, if you look at the 
dropout rates and proficiency rates on high stakes testing, I 
would say statistically we are not improving. Part of that can 
be attributed to the modifications in part to ELL, English 
language learners, the fact that there are very little 
modifications, if any, in that area.
    Qualitatively, I would say that you probably have a growing 
number of Native educators who are very attentive to the needs 
of Native youth. For example, I work with incarcerated Native 
American youth at a State run detention facility. These are 
maximum security youth who hopefully will leave the facility or 
maybe go on to an adult facility.
    The qualitative element of that is to teach Native studies 
and talk about sovereignty, optimism and history, like Alcatraz 
and things of that sort, to see them and how they view their 
lives and how they begin to see themselves not as an individual 
fighting against many negative challenges but empowering 
themselves through knowledge.
    Qualitatively as an educator, I can see a difference when 
you talk to them about issues related to them in not only a 
culturally relevant way but in a culturally sustaining way, 
honoring who we are as Native people.
    Senator Udall. Thank you.
    Thank you to all of today's witnesses.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Udall.
    Senator Franken, I think you are next.
    Senator Franken. Thank you, Mr. Chairman.
    Thank you all for your testimony.
    Promoting Native American languages is not just about the 
language itself, it is also about the history interwoven into 
that language or with that language. Lieutenant Governor 
MoQuino called it ``the conduit by which our culture is 
transmitted.''
    That is why bills like Senator Udall's that support the 
vitality of Native languages are so important.
    We have seen and heard from your testimony the benefits of 
instruction in Native languages. In some schools where 
indigenous language is the primary language of instruction, we 
have seen improved graduation rates and better college 
enrollment rates than in schools where Native American students 
are taught only in English.
    Beyond the academic benefits, there are significant 
cognitive, psychological and cultural benefits from the 
American language immersion programs. That is why I fought to 
include language in the K through 12 education reauthorization 
that will create language immersion programs in Indian country.
    Dr. Martinez, let us start where you left off. What are the 
key benefits that you and other researchers have identified to 
Native language immersion and instruction programs?
    Ms. Martinez. One the primary benefits is that it 
establishes a strong cultural, linguistic foundation for Native 
youth to navigate later on as they go through elementary, 
middle school and high school education.
    Especially in New Mexico, we have a range of students, some 
youth who have a very strong cultural and linguistic 
foundation, like myself. I grew up hearing the language and 
learning about ceremony as part of my being raised at Taos 
Pueblo.
    Youth who have primarily grown up in urban areas, cities 
and so on, who may be a combination of many different tribes, 
maybe half Native and half African-American or half Hispanic, 
oftentimes because they are in an urban setting, it is very 
difficult for them sometimes to understand their identities 
because they do not hear the language around them all the time.
    Social media is full of language. The English language is a 
hegemonic device. It is very much out there. It is everywhere 
around you. The difficulty then is to try to teach a language 
and maintain it on a daily basis so it is not just something 
where you know the alphabet and can identify objects but it 
becomes part of the way you view yourself and the world.
    Senator Franken. This is for anyone. We have talked a lot 
about cultural trauma. Is there a connection between learning 
your language, your cultural language and a healing of that 
trauma?
    Ms. Martinez. I will defer to someone else. Maybe Mr. 
MoQuino would like to address that?
    Mr. MoQuino. To answer that, yes, there is a very strong 
healing within our own language and just talking to people. 
Kids who get in trouble, as administrators, we go to schools, 
as I mentioned. We tell them to continue their education and be 
good. We use the three R's. I do not know if you know the three 
R's. It is not reading, writing and arithmetic.
    It is respect, responsibility and reflection. Respect your 
school, respect your teachers, respect your parents, respect 
yourself. Have responsibility for yourself, the things you do 
at school and at home and everyplace else in your tribal 
culture. Reflection, look at yourself in the mirror. Who do you 
see?
    That is what we encourage. It inspires our younger kids to 
really think it over and say yes, those are very healthy, 
healing type words we like to hear both in English and in our 
Native language at Acoma.
    Senator Franken. Dr. Martinez, I only have about 20 seconds 
left but do you want to answer that?
    Ms. Martinez. I was going to say yes. If you want, I can 
send you some research on that which does show a direct link 
between healing from historical trauma and cultural language 
programs because there is data out there.
    Senator Franken. I would love to see that. We will make 
sure you get my contact information.
    Thank you, Mr. Chairman.
    The Chairman. Senator Heitkamp.

               STATEMENT OF HON. HEIDI HEITKAMP, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Heitkamp. Thank you, Mr. Chairman.
    Building on what Senator Franken discussed, I think we 
would all like to see that because we are all in this process 
of trying to figure out what is the new dynamic, where have we 
failed so spectacularly when you look at the numbers in terms 
of growth and opportunity, in terms of pride and respect and 
responsibility and reflection.
    I think several of us on this Committee, including Senator 
Franken and myself, have come to believe that in order to 
restore or really begin to grow, we need to do a little more of 
that reflection. We need to be responsible for the reflection. 
Language is a big building block, a big foundational part in 
understanding who people are as they try to either put back 
their life or grow a different life than what they have seen 
around themselves.
    I want to reflect on language programs in two ways. Number 
one is quality and sustainability. I think Senator Franken gave 
me a quick look when you said only 10 teachers in the BIE 
system today are in fact certified. We find that to be less 
than appropriate, less than responsible behavior.
    Yet we have this conflict with language programs where we 
do not necessarily want to make that certification a barrier to 
developing that building block of restoration of language and 
rebuilding culture.
    This is for anyone. I will tell you that the elders in my 
communities in Indian country frequently are concerned 
sometimes with the language programs because the language that 
is being taught does not reflect what they have learned.
    Who is the better keeper than an elder and someone who 
basically spent the great part of their life speaking the 
language? How do we balance those two issues which is the need 
for qualified with board certification, as you pointed out in 
terms of outcomes, but also taking a look at how this is truly 
different, language programs are truly different? How do we 
balance that?
    I will ask you, Ms. Robinson. How do you bridge that gap 
when you look at the programs for which you are responsible?
    Ms. Robinson. It certainly is a difficult balance. I have 
to say looking through the bills and hearing some of the 
witnesses today, one of the methods that has proven to be 
effective is for the State or the board certification process 
to work with the tribe so that the tribe is able to do an 
alternative certification of these elders who are in the 
classrooms working with the teachers.
    One of the projects I mentioned in Montana was the Cuts 
Wood School and talked specifically about elders working with 
the teachers in the classroom and increasing the proficiency 
level of Native languages for 30 students. I believe New Mexico 
has alternative certifications.
    One of the things we promote or support under ANA is for 
tribes to work with local education agencies or SEAs to figure 
out how to determine the best people are to be in the classroom 
to do Native language teaching.
    Senator Heitkamp. Ms. Martinez, you seem to be nodding your 
head. Do you believe that this alternative process that has 
been adopted will, in fact, take care of the problem as I see 
it which is we want people who truly know the language to be 
the teachers of the language?
    Ms. Martinez. Yes. My colleague, Dr. Christine Sims and I 
have worked on this program. We do have an alternative 
education certification program. It has been very successful.
    As an example, we have the Keres Children's Language 
Center, the KCLC, which is a Montessori school located in 
Cochiti Pueblo for children between the ages of three and five 
years old. Trisha Moquino was one of my former graduates. She 
is a founder of this school.
    They have worked successfully in using the Keres language 
as a Native instruction and now they have added a kindergarten 
and first grade to continue that instruction.
    Another example of this is Jemez Pueblo at Walatowa. The 
tribal council has mandated that their Head Start program make 
the transition to full Towa immersion program in order to 
maintain their Towa language system.
    The same thing has been happening at my Pueblo of Taos 
where we have the Tiwa Baby Program and the Head Start program.
    Senator Heitkamp. Do you feel comfortable that in all those 
programs the language being taught is, in fact, the historic 
and cultural language?
    Ms. Martinez. It is because of the people who teach and the 
program that Christine Sims runs.
    The concern is that we need to have further support. I was 
just telling a friend of mine that a lot of this work we do pro 
bono. We use a lot of our own resources. It would be great if 
we had some kind of funding source to continue this work.
    Senator Heitkamp. Mr. Chairman, may I be indulged with one 
additional question?
    The Chairman. Please do.
    Senator Heitkamp. That is sustainability. Obviously there 
are not enough resources to cover all the programs that want 
these resources. I think a number of you have suggested 
extensions or looking at a longer period of time.
    I think we have to say what additional stress does that put 
on additional tribal entities that would like to see access to 
these programs which will not get access if we extend the time 
period.
    Ms. Robinson, how do you respond to the concern about 
sustainability of these programs and how can we extend these 
resources?
    Ms. Robinson. We share the same concerns about 
sustainability. It breaks our hearts when we hear that we 
funded an Esther Martinez program at Acoma that was doing well 
but once the project period was over, they were no longer able 
to continue operation of the program.
    Five years, while it would make a difference, we realize 
there is still a lot to do. ANA, unfortunately, is not designed 
to do long term, sustainable types of programs but more so 
short term projects.
    I think the NEST is one way to begin to take a look at how 
we can incorporate more long term, sustainable programming, 
looking at the Department of Education, the Department of 
Interior and the projects they have and how they are supporting 
and promoting Native languages.
    I think ANA is there to help with teacher certifications, 
curriculum development and do a lot of the supplemental and 
additional activities that need to be done but we are not I 
think the proper source to do the long term sustainability.
    Senator Heitkamp. I think that is right but I think the 
question is when do we see a program at that level where it 
then can launch independently or launch into BIE programming or 
into public school programming? That is my concern.
    My concern is we have picked an arbitrary number and it may 
not be enough to prove the fact that we want these programs to 
be sustainable and we can achieve different outcomes if they 
are.
    Ms. Robinson. I am excited that this year we are going to 
be doing a different competition or an additional competition 
that is taking a look at the continuum of education across the 
community.
    What we are hoping will come as a result or an outcome is 
there will be long term, sustainable educational programming in 
the Native languages starting at the early childhood level, 
going through K through 12 and through higher education.
    It is five years initially. It is a demonstration project 
so it will be a cohort. We will be providing extensive, 
intensive and focused training and technical assistance, 
treating these grants as cooperative agreements. We will be 
working with them regularly.
    We will convene them regularly to help develop what data 
should be collected, what rigorous evaluation would look like, 
how we will measure success, how to standardize procedures that 
seem to be working and how to really build an evidence base.
    Hopefully after that five years, we will be able to do 
another five years. Again, we understand that this is sort of 
piecemeal but we are hoping to be able to show at the end of 
the first five years that we can build this sustainability if 
we put the initial investment first.
    Senator Heitkamp. I have just a final comment. We hear this 
all across the board, whether it is substance abuse programs, 
additional programs for housing which is we have these kind of 
new starts where we start something and we never see it 
through. We have to figure out the sustainability piece of 
this.
    My time has expired. Thank you, Mr. Chairman, for the extra 
few minutes.
    The Chairman. Thank you, Senator Heitkamp.
    I was going to ask Dr. Martinez if she could supply us with 
that information both you and Senator Franken asked for? We 
will insert it as part of the official record of today's 
testimony.
    Ms. Martinez. On trauma, language and cultural policy? 
Okay.
    The Chairman. Thank you.
    Ms. Robinson, according to your written testimony, the 
number of Native American language teachers diminished under No 
Child Left Behind due to a lack of valid teacher assessments in 
Native American languages.
    The testimony highlighted one grant your agency awarded 
which trained language apprentices to receive language teacher 
certifications. The apprentices then gained relevant classroom 
experience.
    What has the Administration for Native Americans done to 
increase, in the long run, the number of Native language 
teachers in schools since the passage of the Esther Martinez 
Native American Languages Preservation Act?
    Ms. Robinson. The way the Esther Martinez and all of our 
programs are designed is that they are community-driven. It is 
a community approach and it is the community that is 
prioritizing what they would like to do with regards to Native 
languages.
    We have highlighted and promoted model programs including a 
master apprentice which was highlighted in our testimony as 
well as other techniques to help teachers become immersion 
language teachers and then be certified.
    It really depends on the pool of applications that we 
receive and how they are reviewed by their peers. We have a 
peer panel review. Once it comes to us, it is really just a 
matter of saying yes to the funding.
    Because we do not have the grasp we would like in terms of 
how many applications are received that are specifically 
focused on professional development and certification of 
teachers, we want to take a look now to see how many 
applications come in specifically for that reason and how we 
might be able to do a better job of providing additional 
support specifically for those types of applications for 
grants.
    The Chairman. The Native American Programs Act has been on 
the books for about 40 years. It requires you to collect and 
disseminate information related to the social and economic 
conditions of Native Americans. You are also required to submit 
an annual report to Congress about the conditions.
    Could you help the Committee understand how the language 
programs in these bills will help to address the social and 
economic conditions you have been evaluating in these reports?
    Ms. Robinson. We are taking a look now at emerging research 
and some of the research mentioned earlier which suggests 
Native language which is intrinsically tied to Native culture 
certainly serves as a protective factor for risky behavior and 
behaviors that are not ideal for young people, students and 
communities to live healthy lifestyles which in turn leads to 
economic and social conditions of not just that individual but 
of that family, that community or that tribe.
    We are looking now at the data we have with regard to what 
language programs have we funded, what improvements have we 
seen with regard to what the language programs are reporting to 
us in terms of the outcomes they determined for themselves and 
how that relates to what we hope will be overall increased 
social and economic conditions.
    We are taking a look again at revamping how we are 
reporting that information to Congress so that it is a useful 
tool and not just a thick document that puts everything in 
there and is hard to navigate.
    We are very interested in your feedback and the feedback 
from others in terms of additional information they would like 
to see in that report.
    The Chairman. Mr. MoQuino, the Pueblo of Acoma has a 
language retention program. It is funded by the tribe and by 
other sources. The program teaches the tribal languages in 
local schools and hosts language immersion summer camps.
    I was wondering if you could share with the Committee how 
this program has positively impacted student academic 
achievement and other benchmarks for success?
    Mr. MoQuino. The language program is funded within our own 
tribal appropriation funding. It inspires and we like to 
encourage our kids to learn our language at a very young age 
which will help them both in our traditional culture and as we 
call it, the outside world.
    That is why we like this program. We want support from 
within the administration to keep it growing because, as I 
mentioned, we are losing our language. We are. We are not 
inspiring our young ones to learn the culture, the language.
    Besides that, we rely on our elders. Our elders are the 
ones who are very, very traditional, very fluent and that is 
where we go back to. We like to get them involved a lot. It is 
hard to get them to attend these language nests which there is 
no more language nest.
    To me, as I mentioned, we inspire our young ones to learn 
the culture, learn the language so they can fully understand 
how the system, the culture and traditions work.
    The Chairman. Thank you.
    Ms. Accardi, the Bureau of Indian Education blueprint for 
reform contains several recommendations to reform Indian 
education. One of the recommendations suggested that your 
organization partner with the Bureau to help teachers pursue 
teacher certification.
    The goal would be to reach one thousand board certified 
teachers in the Bureau of Indian Education schools by 2020.
    I am a board certified orthopedic surgeon and worked 
closely with the Department of Education of Wyoming and the 
people who are working on board certification. I think it is a 
very important part of any educational system.
    Since the partnership has begun with the Bureau of Indian 
Education, can you talk about what progress has been made to 
increase standards for teachers who are language instructors 
and generally how things are going with the certification 
process?
    Ms. Accardi. One of the aspects of the project that really 
has exemplified the partnership between the Bureau of Indian 
Education and board certified teachers would be the WoLakota 
Project in South Dakota where they have a board certified 
teacher who is working alongside with the tribal elders 
collecting the stories and creating a curriculum that then goes 
back into the classrooms so that the teachers are able to use 
the stories and language of the elders as part of their 
ongoing, daily lessons whether they are working with math or 
social studies. They are promoting the language of the 
children's culture.
    Having the board certified teachers there really helped 
that project to be able to hone in on the specific curriculum 
points that needed to be enhanced and also made it very 
comfortable for the elders who may not have had a lot of 
experience in a classroom to know there was a board certified 
teacher there to help them through the instructional hurdles 
that might happen along the way without requiring them to get 
additional certifications other than own language and culture.
    In terms of the projects nationwide, as I stated we have 
had about 350 teachers who have started. The first sets of 
scores for the teachers will be coming out in the next few 
weeks.
    One part of the project with which we are very pleased is 
the Bureau is not only providing bonuses for the teachers as 
they complete each of the four components of board 
certification but they have also come to them with a message 
that this is a journey of growth so they will be able to 
provide additional instruction, additional mentoring and will 
pay for any required retakes.
    It is not a project that is here and will be pulled 
immediately if they are not immediately successful.
    We are very committed to the fact that you cannot parachute 
in people or projects to these locations and schools and expect 
lasting success. The children of our first nations will 
continue to be last until we build projects that begin in the 
community and come back to the community.
    As we expand our work, we are very hopeful we will be able 
to reach the tribal colleges and begin working with pre-service 
teachers, begin working with high school students so they see 
becoming a teacher in their tribal community as a career that 
is just as honorable and respected as being a doctor or lawyer.
    That is where we see lasting sustainability as we increase 
the number of board certified teachers to help these students 
along that journey.
    The Chairman. I think it is a terrific program. I encourage 
you to continue along that route.
    Thank you
    Ms. Accardi. Thank you.
    The Chairman. Are there any additional questions? If there 
are no more questions for today, other members may also submit 
written follow up questions to you for the record.
    The hearing record will be open for two weeks.
    I want to thank each of you for being here as witnesses 
today.
    This hearing is adjourned.
    [Whereupon, at 3:25 p.m., the Committee was adjourned.]

                            A P P E N D I X

   Prepared Statement of Keiki Kawai`ae`a, Director, Ka Haka `Ula O 
  Ke`elikolani College of Hawaiian Language, University of Hawai`i at 
                                  Hilo
S. 1928 The Native Educator Support and Training Act (NEST Act)
    Aloha Senators Barrasso and Tester,
    On behalf of Ka Haka `Ula O Ke`elikolani College of Hawaiian 
Language at UH Hilo, I humbly submit testimony in response and strong 
consideration for the NEST Act. As a background, Ka Haka `Ula O 
Ke`elikolani College has a charge from the State of Hawai`i to focus on 
education with primary impact on Native Hawaiians and other Native 
American peoples. To our knowledge, we are presently the only tertiary 
education institution in the United States that is fully operating 
preschool through doctorate education through the medium of a Native 
American language. Our student body consists primarily of Native 
Hawaiians, but also include American Indians, Alaska Natives and other 
indigenous peoples. We are also part of a larger consortium and 
coalition of programs in Hilo that results in many educational 
professionals as visitors to our programs here.
    Visitors typically spend most of their time at our P-12 laboratory 
school Native language medium/immersion site Nawahiokalani`opu`u 
(Nawahi) with some 400 students enrolled. Since our first high school 
graduation in 1999 we have had an 87 percent immediate enrollment into 
college from high school and not a single drop out. The students at 
Nawahi School are over 95 percent of Native Hawaiian ancestry and 
approximately 70 percent from free and reduced lunch backgrounds. Their 
teachers have been trained and certified by our College here with the 
curriculum of the school developed and produced under the leadership of 
the College, including individuals who have graduated from our master's 
and doctoral programs focused on indigenous language revitalization and 
education through such languages.
    Our work is based in the science of linguistics as well as the 
careful alignment of academic programming with indigenous worldviews 
and cultures.
    The positive outcomes of Ka Haka `Ula O Ke`elikolani in providing 
successful education to Native children through their endangered 
ancestral language have not come with considerable struggle. That 
struggle continues as the educational approaches of our College do not 
easily fit into mainstream organizational structures of mainstream 
funding opportunities. We are very much in support of S. 1928 as the 
goals of the NEST Act have the potential to serve Native American 
communities, including many who have visited us and continue to work 
with us. This bill is important as it provides critical support for the 
recruitment, preparation and on-going development of Native educators 
who are needed to meet the needs of existing preschool to secondary 
Native language education, as well as to assure program growth. 
Attaining high levels of cultural, linguistic, and professional 
proficiency of each Native language teacher is essential. This requires 
the demonstration of language and culture knowledge, pedagogical 
knowledge and skills, academic content knowledge and cultural and 
professional disposition to develop the cultural competence and 
academic achievement of students. Many of these requirements are 
additional to ``normal'' teacher preparation requirements for new 
teachers in mainstream English-medium schools and require specialized, 
distinct preparation and ongoing development.
    We also feel that a few modifications of the bill will make it 
stronger. The following are our recommended changes:

        1.  First we recommend that, except for cases specifically 
        relating to existing programs, e.g., the Bureau of Indian 
        Education, the term Native American be used throughout the 
        bill. Such a change is especially important for those parts of 
        the bill that deal with education in and through Native 
        American languages. The Native American Languages Act of 1990 
        uses the inclusive term ``Native American'' and its inclusive 
        approach has played a major role in the high level of 
        cooperation among initiatives involving Native American 
        languages since then.

        2.  Second we recommend that the preparation of teachers 
        include attention to training in the delivery of content areas, 
        e.g., language arts, mathematics, science, social studies, 
        through Native American languages and the heritage of those 
        languages. Such attention to a range of academic fields 
        including STEM and STEAM will provide teacher candidates with a 
        holistic approach when combined with training in Native 
        American languages and in appropriate education pedagogy.

        3.  Title I: Educator Assistance

          a.  p. 5, 14 (I) Advanced Study--Revise: . . .leading to 
        initial teacher certification or an advanced degree in early 
        childhood, elementary, secondary education, school 
        administration, or Native language/culture education. . .

          b.  Strongly support comprehensive scholarship funding 
        package that covers tuition, educational expenses and a monthly 
        stipend, all of which will become an excellent recruitment 
        strategy and incentive. This is greatly needed to assist 
        fulltime study and on-time completion. Currently, the 
        availability of financial aid for graduate level programs is 
        difficult to obtain.

          c.  p. 16, 23 (1) . . .for recruitment and placement of 
        preschool, elementary. . .

          d.  Specify priority of fulltime employment within high need 
        area,, i.e. Hawaiian language immersion (pp 16-17)

        4.  Third, we recommend that in Sec 381 (d)(1) (A) and (B) 
        there be included opportunities to train program administers 
        and developers, with the suggested wording being:

          (A)  Development of a new Native American immersion and 
        language teacher training program that leads to state or tribal 
        teacher program administrator, or program developer 
        certification or an advanced degree in early childhood, 
        elementary, secondary education, language program 
        administration, or Native language/culture education.

          (B)  Support and expansion of an existing Native American 
        immersion and language teacher training program that leads to 
        state or tribal teacher, program administrator, or program 
        developer certification or an advanced degree in early 
        childhood, elementary, secondary education, language program 
        administration, or Native language/culture education.

          (C)  Fourth, we recommend that provisions for the use of 
        distance education, telecommunications, and summer institutes 
        be especially supported to allow teacher, program administrator 
        and program developer candidates from remote communities the 
        opportunity to participate in the benefits of the NEST Act 
        while also working in their home communities during the regular 
        school session.

        5.  Finally, we encourage that program also include a new (E) 
        after Sec. 381 (d)(2)(D) as follows:

           and; (D) other activities that have the potential to further 
        strengthen education through Native American languages and the 
        ability of communities to sustain programs and schools taught 
        through Native American languages.

        We extend our mahalo to Senators Tester, Franken and Heinrich 
        for introducing this important bill as it supports the 
        recruitment, preparation and on-going development of Native 
        educators who are needed to meet the needs of existing 
        preschool to secondary Native language schools, as well as to 
        assure the program growth. We urge that it be passed with 
        appropriate amendments as suggested above.

                                  [all]
</pre></body></html>
